f'lifcij ""j
KW 63
|
IN THE
SUPREME COURT OF THE UNITED STATES

~7K'W

— PETITIONER

(Your Name)

vs.

(J.O)'hfd ^S-haV^S hmfjTidCx

— RESPONDENT (S)

ON PETITION FOR A WRIT OF CERTIORARI TO

■R-^kmc^nrx

Fjy jT-l'In O/iTCc a

Pf\u.

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

er
12155- mi
1

(Your Name)

"Rco-ir.

31

(Address)

LUo/lXi (in

0~\

DC, ft 11

(City, State, Zip Code)

(Phone Number)

RECEIVED
MAY 1 1 2021
•FFICE OF THE CLERK
SUPREME COURT. U.S.

■1

Question Presented
Why did the court feel it necessary to order the defendant with a
death sentence, so that they would not have their conduct or
actions reviewed; why not transfer her trial and docketing her
second appeal?

LIST OF PARTIES

ft/f All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

1

'F'qujt^x G^n2u.i4" 'Richmond \Jc
OiS

uour4I

i%-

3y
a, 30-77VV

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION

7.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

9r

REASONS FOR GRANTING THE WRIT

ID

CONCLUSION

INDEX TO APPENDICES

X hoor^r) CjirZlu/9-V7£5

APPENDIX A

( (Vi-CMf-io
APPENDIX B

APPENDIX E

-fj

2 fo^rVVx 0,'/rCai4" 70-7737

APPENDIX C ^
APPENDIX D

3~-3

S<SA-V<S.ncir>G

4 /Ao4"iod

to

G>

1

o>oi"v>r<£5!b

MxM MesS ^qes

APPENDIX F

LOouJa rtCfr IT'a/iSn

7

?a

-////<*

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[\X For cases from federal courts:

it

The opinion of the United States court of appeals appears at Appendix ^3 to
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

m,

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:

The opinion of the highest state court to review the merits appears at
Appendix-------- to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[V/j For cases from federal courts:
The date, on which the United States Court of Appeals decided my case
was -JrXKnuCry
[ ] No petition for rehearing was timely filed in my case.
A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: //-^5- «D d
, and a copy of the
order denying rehearing appears at Appendix /j5 .
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

Constitutional and statutory provisions involved
Rule 21 F.R.C.P. Transfer for trial
A. For prejudice. Upon the defendants motion, the court must
transfer the proceeding against a dependent to another district if
the court is satisfied that's so greatly prejudiced against the
defendant exist in the transferring district that the defendant
cannot obtain a fair and impartial trial there.
Fifth amendment United States Constitution
No person shall be held to answer for a capital, or otherwise in
famous crime, on a present meant or indictment of grand jury,
except in cases arising in the land or naval forces, or in a militia,
when an actual service and time of war or public danger; Nor
shall any person be subject for the same fence to be twice put in
jeopardy of life or limb; Nor shall be compelled in any criminal
case to be a witness against himself, Nor be deprived of life,
liberty, or property, without due process of law; nor shall private
property be taken for public use, without just compensation.
United States constitution Amendment 14
Section 1
All persons born or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of the United States and of
the state wherein they reside. No state shall make or enforce any
law which shall abridge the privileges or immunities of citizens of
the United States; nor shall any state deprive any person of life,
liberty, or property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of the laws.
Section 5
That Congress shall have power to enforce, by appropriate
legislation, the provisions of this article.
18 U.S.C. §§ 3732, 3742. The appeal is the first way in which a
federal criminal defendant who has been convicted of a crime,
either after a guilty plea or a trial, may challenge a conviction or
sentence. A defendant's conviction is not final until it has been
affirmed on direct appeal.

a

Statement of case
The procedural history in this case docket number 20-7734.
Also makes reference to the original transfer of trial 19-4773. The
defendant had to re-file so she would not be out of time. The
opinions and appendix reflect this procedural history with a
separate section for each. This occurred because of coronavirus
and the delays in the court system.
Appendix 1
Fourth circuit Richmond Va
19-4773
l.July 22nd 2019 defendant arraigned
docket number 9
Defendant filed pro se motion for transfer of trial due to
prejudiced
As per rule 21 of federal rules of criminal procedure
Giving reason as to the prejudiced held against her.
Past procedural history:
Concerning prejudice
cases transferred from the northern circuit due to prejudice or
conflict of interest

l:17cvl28 which was 2:17cv0395
2:16cv00050
These following cases were dismissed by the same judge that the
defendant previously had cases transferred for prejudiced and
conflict of interest.

2:17cv00137
2:17cvl32

3

These cases were dismissed as moot in the fourth circuit because
the defendant was no longer in states custody even though they
were not a criminal matter.

16-6995
17-3849
17-6463
17-7597
18-7066
18-7069
The petitioner feels that there was a conflict of interest. Due to
previous cases that were filed in the Northern District of West
Virginia and due to the filing of the US Supreme Court case filed
against the Northern District of West Virginia the fourth circuit in
Richmond Virginia. The defendant filed a writ of certiorari docket
number.
Which was dismissed for the petitioners inability to pay a paid
petition even though she was receiving food stamps at the time.
Case number
18-8934
2.The petitioner was denied because she had appointed counsel.
Docket 20
But that is not what rule 21 of the federal rules a criminal
procedure states it says the defendant is supposed to ask.
3.Petitioner filed fourth circuit and was refused stating the only
thing the petitioner could appeal was her sentence after going to
trial.
Docket 5

Q

4.Petitioner feels that she had a right to ask for a transfer of trial *
under rule 21 criminal rules of federal procedure before her
criminal case was heard due to the fact of double Jeopardy.
Docket 11

S.The petitioner filed again for transfer a trial.
Docket number 51

1

3

Appendix 2
Fourth circuit Richmond Va
Case 20-7744
6.The petitioner filed again for transfer a trial.
Docket 92
7.The defendant was denied again.
Docket 4
Which was a refusal to Docket the petitioners appeal
8. The defendant filed with the fourth circuit and was told that
the only thing that she was allowed to appeal was her sentence if
it was not following any certain guidelines the defendant did not
sign the plea offer which means the defendant has a right to
appeal her trial.

Docket 11

6

Appendix 3
9. The defendant was sentenced
Docket 86
c
10. .Defendant filed again for transfer of trial As she was
instructed to do at the sentencing.
Docket 91
11. The defendant was refused again
Docket 97
The defendant does not understand why the court refused to file
her appeal when she had it filed within the 14 day timeframe
asking about her transfer of trial be granted after sentencing. The
defendant feels that this is double jeopardy because now if the
trial is transferred she will be tried twice for the same crime.

12. The petitioner asked her counsel Numerous times for a
transfer of trial due to prejudice. She was informed by her cancel
that they did not see any prejudiced or any reason that the judge
or courts would be prejudiced it was a civil filing.
Text messages
Number

~J

Appendix 4
13. .Defendants motion to suppress physical evidence
Docket
22
The defendant feels that due to prejudice and refusals of the
court to follow rule 21 of federal rules of criminal procedure that
the decisions to suppression suppress the physical evidence were
biased and prejudice.

It was a traffic stop not a drug stop as the officer stated due to
the fact of the prescription pills found. No one being charged with
them after the driver stating they were hers. And he also did not
take my money the officer at the station stated that it was not a
drug stop so I could have my money back.

14.Decision
Docket 38

3

1

Reasons for granting the petition
The defendant tried multiple times to have the trial transferred to
another circuit due to prejudice so she would not be tried for the
same crime twice.
The defendant is going to give you an example of the prejudice.
Let's say that I put a lawsuit against you. One that might have
your conduct reviewed and carry consequences that would
concern, your career. That is your way of life it might give you a
bad name. Your friends the same people you work with, eat with,
play golf with, and your kids go to school together. Now your
friends know what is going on because you were served with a
copy of it. Do you want to tell me that your friends are not going
to feel a certain type of way because someone's trying to give you
a bad name and you might lose your job. That would be a concern
for their whole court to be reviewed. The defendant feels due to
the US Supreme Court case filed docket number 18-8934. That
they received a copy of; the court knew what was going on. And
they still chose to deny the defendant her constitutional rights.
After the defendant made multiple requests so she may receive a
fair tribunal. She feels that due to the filings against previous
attorneys, prosecutors, and judges that maybe her attorneys did
not try to defend her to the best of their ability. And that maybe
the court had certain prejudice feelings against the defendant.
They tried to coerced the defendant into signing a plea offer the
defendant was told she did not sign the plea offer they were
going to ask the judge that they put her back in prison.
They told me that if I wanted a jury trial that they were going to
ask the judge to put me back in prison. The defendant finally had
to call her probation officer and ask her was she being put back in
prison at the hearing.
See the attached text messages sent into the District Court and
the fourth circuit Case number
The defendant feels that due to the 14th amendment of the
United States Constitution section 5 Congress should enforce the
defendants rights to due process; and a fair tribunal.

q

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

tanoDk
Date:

mJhA

709-3/

"TlniS
coq

Motion for V)o4-oP

fed

in

ratTiq Grv3 tS Hcb'*"’ ^or

3delay

10

